<html>
<title> - HEARING ON THE NOMINATION OF KEN KOPOCIS TO BE ASSISTANT ADMINISTRATOR FOR THE OFFICE OF WATER FOR THE ENVIRONMENTAL PROTECTION AGENCY AND REBECCA WODDER TO BE ASSISTANT SECRETARY FOR FISH, WILDLIFE AND PARKS FOR THE DEPARTMENT OF THE INTERIOR</title>
<body><pre>[Senate Hearing 112-954]
[From the U.S. Government Publishing Office]





                                                        S. Hrg. 112-954
 
HEARING ON THE NOMINATION OF KEN KOPOCIS TO BE ASSISTANT ADMINISTRATOR 
  FOR THE OFFICE OF WATER FOR THE ENVIRONMENTAL PROTECTION AGENCY AND 
 REBECCA WODDER TO BE ASSISTANT SECRETARY FOR FISH, WILDLIFE AND PARKS 
                   FOR THE DEPARTMENT OF THE INTERIOR

=======================================================================

                                HEARING

                               BEFORE THE

                              COMMITTEE ON
                      ENVIRONMENT AND PUBLIC WORKS
                          UNITED STATES SENATE

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

                             JULY 19, 2011

                               __________

  Printed for the use of the Committee on Environment and Public Works
  
  
  
  
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT] 
  


       Available via the World Wide Web: http://www.fdsys.gpo.gov
                         ________________


                U.S. GOVERNMENT PUBLISHING OFFICE
                   
 23-820 PDF                WASHINGTON : 2017       
____________________________________________________________________
 For sale by the Superintendent of Documents, U.S. Government Publishing Office,
Internet:bookstore.gpo.gov. Phone:toll free (866)512-1800;DC area (202)512-1800
  Fax:(202) 512-2104 Mail:Stop IDCC,Washington,DC 20402-001     
  
       

                               

               COMMITTEE ON ENVIRONMENT AND PUBLIC WORKS

                      ONE HUNDRED TWELFTH CONGRESS
                             FIRST SESSION

                  BARBARA BOXER, California, Chairman
MAX BAUCUS, Montana                  JAMES M. INHOFE, Oklahoma
THOMAS R. CARPER, Delaware           DAVID VITTER, Louisiana
FRANK R. LAUTENBERG, New Jersey      JOHN BARRASSO, Wyoming
BENJAMIN L. CARDIN, Maryland         JEFF SESSIONS, Alabama
BERNARD SANDERS, Vermont             MIKE CRAPO, Idaho
SHELDON WHITEHOUSE, Rhode Island     LAMAR ALEXANDER, Tennessee
TOM UDALL, New Mexico                MIKE JOHANNS, Nebraska
JEFF MERKLEY, Oregon                 JOHN BOOZMAN, Arkansas
KIRSTEN GILLIBRAND, New York

       Bettina Poirier, Majority Staff Director and Chief Counsel
                 Ruth Van Mark, Minority Staff Director
                 
                 

                            C O N T E N T S

                              ----------                              
                                                                   Page

                             JULY 19, 2011
                           OPENING STATEMENTS

Boxer, Hon. Barbara, U.S. Senator from the State of California...     1
Inhofe, James M., U.S. Senator from the State of Oklahoma........     3
Lautenberg, Frank, U.S. Senator from the State of New Jersey.....     5
Barrasso, Hon. John, U.S. Senator from the State of Wyoming......     6
Cardin, Hon. Benjamin, U.S. Senator from the State of Maryland...     8
Gillibrand, Kristen, U.S. Senator from the State of New York.....    10

                               WITNESSES

Ken Kopocis, Nominated to be Assistant Administrator, Office of 
  Water, Environmental Protection Agency.........................    10
    Prepared statement...........................................    13
    Responses to additional questions from:
        Senator Boxer............................................    16
        Senator Inhofe...........................................    19
        Senator Vitter...........................................    26
        Senator Boozman..........................................    27
Rebecca Wodder, Nominated to be Assistant Secretary for Fish, 
  Wildlife and Parks, Department of the Interior.................    29
    Prepared statement...........................................    31
    Responses to additional questions from:
        Senator Boxer............................................    36
        Senator Udall............................................    39
        Senator Merkley..........................................    40
        Senator Inhofe...........................................    42
        Senator Vitter...........................................    55
        Senator Crapo............................................    59
        Senator Boozman..........................................    62


HEARING ON THE NOMINATION OF KEN KOPOCIS TO BE ASSISTANT ADMINISTRATOR 
  FOR THE OFFICE OF WATER FOR THE ENVIRONMENTAL PROTECTION AGENCY AND 
 REBECCA WODDER TO BE ASSISTANT SECRETARY FOR FISH, WILDLIFE AND PARKS 
                   FOR THE DEPARTMENT OF THE INTERIOR

                              ----------                              


                         TUESDAY, JULY 19, 2011

                                       U.S. Senate,
                 Committee on Environment and Public Works,
                                                    Washington, DC.
    The full committee met, pursuant to notice, at 2:30 p.m. in 
room 406, Dirksen Senate Building, Hon. Barbara Boxer (chairman 
of the committee) presiding.
    Present: Senators Boxer, Carper, Lautenberg, Cardin, Udall, 
Merkley, Gillibrand, Inhofe, Barrasso and Boozman.

               STATEMENT OF HON. BARBARA BOXER, 
           U.S. SENATOR FROM THE STATE OF CALIFORNIA

    Senator Boxer. Good afternoon.
    Today, the Senate Committee on Environment and Public Works 
will consider the nomination of Ken Kopocis to be Associate 
Administrator for the Office of Water at the Environmental 
Protection Agency and Rebecca Wodder to be Assistant Secretary 
for Fish, Wildlife and Parks at the Department of the Interior.
    First, I would like to welcome Ken who is well known to 
members of this committee. From 2006 to 2008, Ken served on the 
EPW Committee Majority staff as Deputy Staff Director for 
Infrastructure. During his time here, Ken worked on a number of 
issues including playing a key role--that is understated--in 
the efforts to pass the Water Resources Development Act of 
2007.
    It was really a yeoman's job and I think we all enjoyed 
working with you. It was such a bipartisan effort and I 
remember all of the staff on Senator Inhofe's side as well, 
starting with Ruth and her team.
    In addition to his time on the EPW Committee, Ken has held 
multiple positions on the House Transportation and 
Infrastructure Committee. His work on water issues spans over 
25 years. This broad experience with our Nation's clean water 
and drinking water laws makes him uniquely qualified to deal 
with the many challenges the EPA Office of Water faces today.
    Mr. Kopocis, as you know, the office which you have been 
nominated to lead is very important, critically important. You 
work to ensure that families have safe drinking water and to 
keep our Nation's lakes and rivers clean. You will be 
responsible for implementing important programs that keep our 
children and families healthy and safe.
    I believe your background has prepared you well for this 
position and I look forward to hearing how, if confirmed, you 
will work to uphold and implement the public health safeguards 
administered by the Office of Water.
    Next, I would like to welcome Rebecca Wodder who is going 
to have a fuller introduction from Senator Cardin. Since 1995, 
Ms. Wodder has been President and Chief Executive Officer of 
American Rivers where she has led efforts to help dozens of 
communities restore the health of their rivers through 
innovation conservation measures.
    Ms. Wodder, the Assistant Secretary for Fish, Wildlife and 
Parks helps oversee the work of the Fish and Wildlife Service. 
This agency is the guardian of our natural treasures and 
species in every State of the Union. In my own State of 
California, the Service manages dozens of wildlife refuges 
across our State. The Service also has a big responsibility for 
protecting iconic species like the bald eagle and the 
California condor and helps to manage the millions of migratory 
birds that migrate through or winter in California every year.
    The Service's work to protect important species and manage 
critical wildlife refuges supports tourism and recreation that 
boosts our local economy in California and I know in many other 
States. In 2006, according to the National Survey of Fishing, 
Hunting and Wildlife Associated Recreation, we found those 
activities provided $8 billion to our California economy and 
more than $120 billion to the national economy equaling roughly 
1 percent of the Nation's GDP.
    Ms. Wodder, if you are confirmed, I will also look forward 
to your leadership in working with the State of California, 
stakeholders and other Federal agencies as they seek to develop 
and implement a plan for restoration of the California Bay 
Delta that achieves the co-equal goals of restoring this 
precious ecosystem and improving water supply reliability.
    This ongoing effort is critical to the future of my State 
and it will only succeed if the Fish and Wildlife Service and 
other Federal agencies are strong and supportive.
    Strong leadership is needed in both positions we are 
considering today. From protecting and preserving the Nation's 
national treasures to ensuring that our water is safe to drink 
and our lakes and rivers are clean, the positions for which you 
have been nominated have significant responsibilities. Your 
jobs will not be easy. There will be controversy, there will be 
difficult decisions, but I do expect that you will follow the 
law and the best available science in all your decisionmaking. 
I look forward to hearing more from you today and into the 
future.
    With that, I will call on our Ranking Member, Senator 
Inhofe.

              STATEMENT OF HON. JAMES M. INHOFE, 
            U.S. SENATOR FROM THE STATE OF OKLAHOMA

    Senator Inhofe. Thank you, Madam Chairman.
    First, there are a lot of things that will come up the two 
of you will be working with that I have a great concern with in 
my State of Oklahoma. We are looking at some of the ozone 
standards that will be of concern.
    Ken, I have worked with you for a long time. In fact, a lot 
of the time when you were here, I couldn't remember whether you 
were on my staff or her staff, but nonetheless, we worked 
closely together in the past even though philosophically, we 
have a few areas where we are not going to be together. I think 
probably there will be more so, Ms. Wodder, in your area 
judging from the background and some of the statements you have 
made concerning the Clean Water Act. It seems we have gone 
through quite a few experiences where the Congress will speak, 
if it is cap and trade.
    This is the thing I like about this committee. You can 
totally disagree with everything the other guy stands for and 
love him anyway.
    Such things as the Clean Water Restoration Act, we went 
through that and it was not just rejected but the two authors, 
Oberstar and Feingold were also rejected in the same election. 
Now we are looking at things like cap and trade and other areas 
we will be working with in terms of regulation.
    That is my concern, Ms. Wodder. Some of the statements you 
have made about hydraulic fracturing concern me and I will be 
going over this during question and answer. We are going to be 
asking for a balanced approach to the positions for which you 
are nominated.
    In addition, I expect you to abide by the terms of the 
agreement worked out with the Fish and Wildlife Service with 
Dan Ashe. We spent a long time with Dan Ashe as well as the 
Secretary of the Interior in my office talking about what 
should Fish and Wildlife be doing, what their mission should 
be. Is this something that is again going to try to be used to 
promote something that was rejected in terms of cap and trade 
and some of the other issues.
    I have four things to discuss during questions and answers 
ranging from hydraulic fracturing, the lesser prairie chicken 
and we will cover all those and I look forward to visiting with 
you, getting to know you better and trying to get some 
clarification as to what your commitment is relative to some of 
the other people in the Administration.
    Thank you very much.
    [The prepared statement of Senator Inhofe follows:]

            Statement of Hon. James M. Inhofe, U.S. Senator 
                       from the State of Oklahoma

    We are here today to consider two nominations: Ken Kopocis 
to be Associate Administrator of the Office of Water as well as 
Rebecca Wodder to be Assistant Secretary for Fish, Wildlife, 
and Parks.
    First and foremost in my mind is certainly the upcoming 
announcement by the EPA to tighten the ozone standard, which 
would ruin Oklahoma's and the broader American economy. The 
decision will be announced next week and I will be tracking it 
very closely.
    Turning our attention back to the nominees, I am pleased to 
see Mr. Kopocis, a former EPW Committee staffer, here in our 
committee room again. We have worked together on a number of 
important bills, and while we may differ on our politics, I 
know he would make a valuable addition to the Office of Water.
    I do have serious concerns about Ms. Wodder's nomination: 
she is the CEO of a far-left environmental organization and was 
a staunch supporter of the Clean Water Restoration Act, a bill 
that would have given the Federal Government authority over 
practically every body of water in the country, no matter how 
small. She is also an active proponent of Federal regulation of 
hydraulic fracturing--a practice that is efficiently and 
effectively regulated by states.
    The selection of Ms. Wodder is a clear departure from her 
predecessor, Tom Strickland, who in testimony before the EPW 
Committee said that we should actively and aggressively develop 
our energy resources. Unfortunately, Ms. Wodder's support for 
regulatory advancement suggests that she would do the opposite.
    As President of American Rivers for more than 15 years, Ms. 
Wodder provided leadership and direction on policies and 
activities related to the Army Corps of Engineers Civil Works 
Program. Other water resources stakeholders have validly 
expressed serious concerns with these policies and activities. 
I share their apprehension.
    An Assistant Secretary must be able to appreciate and 
understand differing perspectives in order to make evenhanded 
and well-reasoned policy decisions. Today, I would like your 
assurance that you will bring an objective and balanced 
approach to the position for which you are nominated.
    Let me further say that the Obama-EPA's water policies 
represent an aggressive, heavy handed, top down approach to 
regulation, which is equivalent to the efforts we are seeing 
with EPA's air office.
    Today, EPA is proposing to completely change the rights and 
responsibilities of individuals under the Clean Water Act 
through their new draft guidance. Just as the Obama-EPA is 
attempting to implement a backdoor cap-and-trade through 
regulation, they are using this water guidance document to 
implement the Clean Water Restoration Act through regulation. 
Remember, both of these bills were resoundingly rejected last 
Congress when Democrats held overwhelming majorities.
    By re-interpreting the Rapanos Supreme Court decision and 
incorporating only the expansive language in an attempt to gain 
jurisdictional authority over new waters, EPA is ignoring both 
justices' clear limitations on Federal CWA authority. Not only 
do I believe their interpretation is inappropriate, but 
furthermore, it is completely improper to attempt to change 
people's rights and responsibilities under a law through a 
guidance document. EPA is casting a wide interpretation through 
which they will attempt to legalize through an equally broad 
rulemaking. I strongly oppose EPA's actions here and sincerely 
hope that they listen to the 40 other members who joined me in 
requesting that they abandon any additional actions on this 
document.
    In addition to trying to assert jurisdiction over nearly 
every drop of water in the United States, EPA is issuing a host 
of new regulations in stormwater, strict numeric runoff 
controls and drinking water, all while requesting cuts in water 
programs. I recently released a report exposing the high costs 
of EPA's Water Regulations and the impacts on State and local 
governments called Clouded Waters. This report explores the 
Chesapeake Bay TMDL and Florida Numeric Nutrient Criteria which 
are poised to be expanded to the Mississippi River and other 
major water bodies around the country. These strict regulatory 
approaches are costly and have questionable environmental gains 
attached to them. Additionally, the report looks at EPA's new 
stormwater rules, which have the potential to put EPA in 
control of all land use planning decisions in regulated areas 
and generate mandates that will cost billions of dollars.
    EPA's Office of Water has shown a stunning lack of 
transparency in their decisionmaking in a number of programs, 
most recently highlighted by the GAO report that went public 
just last week discussing the Office of Water's unregulated 
contaminant monitoring program. I know we all share the desire 
for clean, safe, affordable water, but after reading that 
report, it is clear that this lack of transparency has led to 
an incredible amount of distrust with the program. Whether you 
are advocating for or against regulation, we simply do not know 
how EPA is even making decisions about regulating contaminants.
    Additionally, in 2009 when EPA finalized their Construction 
and Development Effluent Limitations Guidelines Rule (ELG), it 
included an arbitrary turbidity limit that was based on faulty 
analysis. The rule ultimately had to be vacated. Additional 
transparency and openness in developing this rule could have 
prevented this. Furthermore, the Chesapeake Bay model and EPA's 
inability to allow enough time for review of how the TMDL load 
allocations were calculated is a major part of the current 
legal challenges. It is simply inappropriate for EPA to make 
major regulatory decisions in the kind of opaque system that 
currently exists. It completely undermines the credibility of 
every regulatory decision EPA makes.
    In addition, I expect Ms. Wodder to abide by the terms of a 
deal that I worked out with Fish & Wildlife Service Director 
Dan Ashe in order to enable his nomination to move forward. 
Here, Dan Ashe clarified that climate change is not the 
overarching consideration driving the Service's day-to-day 
operations. He went on to State that FWS is not responsible for 
the regulation of greenhouse gases, nor is it the Service's 
role to address these causative factors through any of its 
statutory or regulatory authorities. Last, he agreed to 
personally attend multiple stakeholder meetings in Oklahoma to 
discuss the impact of listing the Lesser Prairie Chicken under 
the Endangered Species Act. Oklahomans are rightfully concerned 
about this likely action as it will shut down hundreds of 
millions of dollars of wind development and harm private 
property values.
    I look forward to hearing from both nominees and having the 
opportunity to discuss many of the concerns I have expressed 
about the direction of the Obama-EPA as it relates to ensuring 
we are taking the right approach to balancing economic and 
environmental needs.

    Senator Boxer. Senator, it is Rebecca's birthday today, so 
I want to say happy birthday to you.
    Senator Inhofe. Were you going to sing to her?
    Senator Boxer. I was not but I wanted to say, best to you.
    Senator Lautenberg.

            STATEMENT OF HON. FRANK R. LAUTENBERG, 
           U.S. SENATOR FROM THE STATE OF NEW JERSEY

    Senator Lautenberg. Thank you very much.
    I thank Senator Cardin for the courtesy. I know that he 
wants to introduce the witness.
    I thank the witnesses for agreeing to be of service to our 
country. If confirmed, Rebecca Wodder and Ken Kopocis will 
become two of America's most important environmental stewards. 
Protecting public lands and water is always important, 
especially now when our natural resources are under assault 
from pollution, a warring planet and industries that want to 
dismantle long-standing environmental protection.
    Ms. Wodder, President Obama's choice to become the Interior 
Department's Assistant Secretary for Fish, Wildlife and Parks, 
this position is charged with helping to lead our country's 
efforts to conserve and protect fish, wildlife, plants and 
their habitats. Ms. Wodder also would be responsible for 
helping our country deal with the very serious problem, White 
Nose Syndrome, a deadly fungus that could wipe out much of our 
bat population.
    Make no mistake, this is a serious threat. Bats are some of 
the Nation's most important exterminators. They help to protect 
our Country's crops from pests, so if we don't stop this 
disease from spreading, it could trigger a major environmental 
and economic crisis.
    Ms. Wodder would also have the duty to help preserve and 
maintain America's critically important national wildlife 
refuges which too often are overburdened and understaffed. 
These responsibilities dovetail well with Ms. Wodder's 
experience which includes working with environmental groups 
grappling with the issues that would fall under her 
jurisdiction at the Interior Department.
    For example, for the past 16 years, Ms. Wodder has led 
American Rivers, a national, nonprofit conservation group that 
strives to protect and restore the Nation's waters. In other 
words, Ms. Wodder has dedicated her career to fight for clean 
water and protecting public lands, the same missions that she 
is nominated to carry out as the head of Fish, Wildlife and 
Parks. Her experience will be an asset, not a liability, as 
some on the other side of the aisle have suggested.
    Similarly, Mr. Kopocis is nominated to become the 
Environmental Protection Agency's Assistant Administrator for 
Water and would bring welcome experience to the position. The 
EPA's Office of Water is responsible for making sure that 
drinking water is clean and our country's oceans and watersheds 
are healthy and safe. Mr. Kopocis has worked on water issues 
for more than a quarter of a century, including several years 
of service as the top staff member of this committee.
    I look forward to hearing from both our witnesses today 
about why we must strengthen our country's environmental 
defenses and how they would fulfill their duties if confirmed.
    I will just take one more moment to talk about the bats. In 
New Jersey, we have old mine shafts. Some years ago, I went 
down with one of my people into the mine shafts. I love those 
little bats. I didn't realize how strong they were and how 
meaningful it was but I knew that they were important in the 
scheme of things.
    At one point in this mine shaft, we had almost 30,000 bats. 
Now there are something close to 1,000 left. That is an 
indescribable blight on what the effects are in terms of their 
pollination responsibilities in consuming half their weight in 
insects each and every day. I won't say it has been trivialized 
but I do think these things are important when a species like 
that is on the verge of disappearance. We are endangering the 
lives of humans down the line.
    We have excellent candidates here, Madam Chairman, and I 
hope that we will be able to deal promptly, effectively and 
positively with them.
    Thank you for being here.
    Senator Boxer. Thank you.
    Senator Barrasso.

               STATEMENT OF HON. JOHN BARRASSO, 
             U.S. SENATOR FROM THE STATE OF WYOMING

    Senator Barrasso. Thank you very much, Madam Chairman.
    Today we have a hearing on two nominees who are candidates 
to fill key positions in the Administration. To fill these 
positions, we need nominees who have a record to me that 
demonstrates an ability to be fair and impartial. Most 
importantly, we need nominees who have a record of 
understanding environmental issues are also economic issues and 
that we have 9.2 percent unemployment in this country today.
    That is why I am troubled by some of the statements made by 
one of the nominees, Ms. Wodder, while she was President of 
American Rivers. I realize she is no longer a spokesperson for 
American Rivers and she may hold differing personal views, but 
I can only go by the record of statements made and try to 
clarify the meaning of those statements through this nomination 
process.
    On August 5, 2007 in an interview with E, the environmental 
magazine, the nominee praised the economic philosophy of Bill 
McKibben in his book Deep Economies stating that, ``I'm a 
strong supporter of his call for a new economic model based on 
sustainability. I would like to get my food, power, et cetera, 
much more locally than I do now.'
    In chapter one of this book, Deep Economies, he states 
``growth at least as we now create it is producing more in 
equality than prosperity, more insecurity than progress.' He 
says ``growth is no longer making us happy.'
    In that same interview when asked which environmental group 
did she most admire, she responds, ``I am a huge fan of the 
work of the Center for the New American Dream which is offering 
practical choices for living a more sustainable and high 
quality of life in the United States.'
    The Center for the New American Dream's website has a whole 
section dedicated to prosperity without growth. The Center's 
website has many anti-economic quotes not widely accepted, 
``the case is strong that growth in the affluent U.S. is now 
doing more harm than good.' It goes on with ``but even if the 
GDP growth could solve the unemployment problem, it shouldn't 
solve the unemployment problem because the cost in greenhouse 
gas emissions is prohibitive.'
    In the same interview, the nominee stated her position on 
commercial American agriculture saying ``I object to factory 
farms.' In April 2001, the nominee stated her opposition to any 
form of mining, oil and natural gas extraction and increased 
traditional domestic energy production saying in the 
Environmental News Service that ``damming, drilling, digging 
and burning to produce energy pollute drinking water, deny the 
public recreational opportunities and drive river wildlife to 
extinction.' She stated the congressional stopgap measures to 
increase domestic energy production ``will exacerbate these 
problems without resulting in long term solutions.'
    In fact, Madam Chairman, American Rivers opposes hydraulic 
fracturing, the key method of extracting America's abundant 
domestic supply of natural gas. The extraction of natural gas 
can create thousands of jobs, not just in the west but in the 
east as well. American Rivers supports the removal of 
hydroelectric dams on the Columbia and Snake Rivers, which will 
further weaken our power grid and businesses that rely on it 
for affordable power.
    Our nominee has campaigned for the Clean Water Restoration 
Act which would give the Federal Government virtually total 
control over any wet area of a State. That bill would have 
regulated everything from prairie potholes to dry creek beds, 
negatively impacting farms and small businesses across the 
country. If confirmed, the nominee would be in a unique 
position to have a major say in what economic activities would 
be allowed to occur in our States.
    It is for this reason that I am going to seek clarification 
of the nominee's statements regarding her feeling about 
balancing environmental concerns while trying to grow our 
economy given that we are at 9.2 percent unemployment in this 
country today. The nominee's views toward agriculture, mining, 
oil and natural gas exploration, and energy production need to 
be clear. With 9.2 percent of the Country looking for 
employment, looking for someone to hire them, they need to be 
assured that this nominee is not opposed to economic growth, 
especially in the important job sectors mentioned above.
    Thank you, Madam Chairman. I look forward to the testimony 
and the chance to clarify the nominee's statements.
    Senator Boxer. Senator Cardin.

              STATEMENT OF HON. BENJAMIN CARDIN, 
            U.S. SENATOR FROM THE STATE OF MARYLAND

    Senator Cardin. Thank you very much, Madam Chair. I very 
much look forward to this hearing with two important positions 
to be filled, the Assistant Administrator for the Office of 
Water for the Environmental Protection Agency and the Assistant 
Secretary for Fish, Wildlife and Parks for the Department of 
the Interior.
    Both positions are critically important to our Nation. My 
top priority in this committee is the Chesapeake Bay, a body of 
water about which I care deeply, because of its economic impact 
on the people of Maryland, because of its environmental 
importance to our way of life, our culture, our history and our 
future. It is very much tied up with the continuation of our 
partnerships to clean up the Chesapeake Bay for all the reasons 
that I have stated. The two positions being filled here both 
play a very important part in that program.
    To Ken Kopocis, let me say it is a pleasure to see you 
again. I have worked with you not only in this committee but 
when I was in the House of Representatives when I first started 
in Congress, and I have had nothing but deep respect for your 
commitment to public service. You brought your expertise to 
those of us serving in Congress and we know you will continue 
in that great line of public service.
    To Ms. Rebecca Wodder, I am going to officially welcome and 
introduce you to this committee. I really have the honor to do 
this.
    First, I want to thank you and your families for your 
commitment to public service. We know this is not easy. Ms. 
Wodder, you have an interesting way of celebrating your 
birthday to be able to subject yourself to the questioning by 
our committee. You have already heard some of the 
preliminaries. We know this is exactly what you want to do, to 
continue your commitment to our community in your willingness 
to move forward with this position, but also doing this on your 
birthday.
    I really want to underscore the point Senator Barrasso made 
that we want to judge our nominees based upon their records and 
based upon their commitment. I look forward to this hearing.
    One thing I would take exception to is that I hope we are 
not going to be judged on every individual we have given 
recommendations to over our careers because I think we should 
be very careful about association and placing too much credence 
on statements we make about third parties.
    However, it is absolutely appropriate for us to question as 
to the commitment of each of you to the responsibilities you 
are seeking to ensue.
    I am particularly pleased to introduce Rebecca Wodder. I 
have come to know Rebecca as we have worked together over the 
last few years on a number of critical issues relating to 
restoring the health of America's rivers and streams. By 
nominating Ms. Wodder, President Obama has chosen a most 
capable and experienced candidate for Assistant Secretary for 
Wildlife and Parks for the Department of Interior.
    Since 1995, Ms. Wodder has served as President and CEO of 
American Rivers. Madam Chair, I really want to compliment her 
in that role. American Rivers has played a critical role in 
preserving America's rivers which in many cases are the fresh 
water supply for our water quality in our great water bodies. 
Yes, I do remember times when our rivers caught fire and thanks 
to organizations such as American Rivers, we now have a 
healthier river system. She did an excellent job as the CEO of 
that organization. Obviously, she brings to the talent from 
that position but also understands the responsibilities of the 
position for which she has been nominated.
    Under her skillful leadership, American Rivers has helped 
dozens of communities implement innovative conservation 
measures. Her success is due to her ability to build effective 
partnerships among government officials and diverse private 
sector stakeholders to protect our Nation's rivers and fresh 
water resources. These are skills that will serve her well at 
the Department of Interior.
    Ms. Wodder has been recognized as one of the top 25 
outstanding conservationists by Outdoor Life Magazine and was 
named Woman of the Year by American Sport Fishing Association.
    As Assistant Secretary for Wildlife and Parks, Ms. Wodder 
will oversee the management of the Nation's magnificent 
national wildlife refuge systems including five in Maryland, 
notably the 27,000 acre Blackwater Refuge which we will be 
talking about after your confirmation. In addition, she 
oversees the work of the National Park Service which writer, 
Wallace Stegner, rightfully called ``America's best idea.'
    I look forward to working with Ms. Wodder on the 
establishment of a new national historical park on Maryland's 
eastern shore to commemorate and celebrate the outstanding life 
of one of America's greatest heroes, Harriet Tubman. That park 
is included not only in Maryland but in the great State of New 
York.
    I appreciate our witnesses being here and I look forward to 
this hearing.
    [The prepared statement of Senator Cardin follows:]

            Statement of Hon. Benjamin Cardin, U.S. Senator 
                       from the State of Maryland

    Madame Chairman, thank you for holding this hearing today.
    I look forward to hearing from the nominees, each of whom 
is being considered for a role that is critically important to 
the protection of our environment, with implications for human 
health and safety, economic growth, and countless other issues 
of vital importance to our Nation.
    Both nominees have impressive backgrounds in environmental 
issues. In fact, I have known Ken Kopocis since I was first 
elected to Congress, and have worked personally with him on a 
number of water-related issues. I look forward to hearing from 
him today, and to working closely with him on clean water 
issues going forward.
    I am also particularly pleased to introduce Rebecca Wodder. 
I have come to know Rebecca as we have worked together over the 
last few years on a number of critical issues relating to 
restoring the health of America's rivers and streams. In 
nominating Ms. Wodder, President Obama has chosen a most 
capable and experienced candidate for Assistant Secretary for 
Wildlife and Parks for the Department of Interior.
    Since 1995, Ms. Wodder has served as President and CEO of 
American Rivers. Under her skillful leadership, American Rivers 
has helped dozens of communities implement innovative 
conservation measures. Her success is due to her ability to 
build effective partnership among government officials and 
diverse private sector stakeholders to protect our nation's 
river and freshwater resources. These are the skills that will 
serve her well at the Department of Interior: a passion for the 
work and a collaborative style.
    Ms. Wodder has been recognized as a Top 25 Outstanding 
Conservationists by Outdoor Life Magazine and was named Woman 
of the Year by American Sportfishing Association.
    As Assistant Secretary for Wildlife and Parks, Ms. Wodder 
will oversee the management the nation's magnificent National 
Wildlife Refuge system, including 5 in Maryland, notably the 
27,000 acre Blackwater Refuge.
    In addition, she will oversee the work of the National Park 
Service, which the writer Wallace Stegner rightly called 
America's Best Idea. I look forward to working with Ms. Wodder 
on the establishment of a new National Historical Park on 
Maryland's Eastern Shore to commemorate and celebrate the 
outstanding life of one of America's greatest heroes, Harriet 
Tubman.
    I appreciate the opportunity to hear from both nominees. 
Thank you.

    Senator Boxer. Thank you, Senator.
    We are joined by Senator Gillibrand. Welcome.

             STATEMENT OF HON. KRISTEN GILLIBRAND, 
            U.S. SENATOR FROM THE STATE OF NEW YORK

    Senator Gillibrand. I just want to welcome the nominees.
    Thank you, Madam Chairman.
    Senator Boxer. Thank you very much.
    We are going to hear from you but I thought before you each 
speak, you would like to introduce your families, so Ken, do 
you want to start and Rebecca, you can follow.
    Mr. Kopocis. With me today is my wife, Chris, she has been 
my wife for 31 years, and our daughter, Kim. We also have a 
son, Jeff, who is currently working in Massachusetts who 
couldn't be with us today.
    Senator Boxer. Rebecca.
    Ms. Wodder. Chairman Boxer, I would like to introduce my 
husband, James Van Erden and our daughter, Jayme. We have 
another daughter as well, Jennifer, who can't be here today 
because she is in Panama serving as a Peace Corps volunteer.
    Senator Boxer. We thank her for her great service. We thank 
both of you and your families for being willing to go through 
the process and to work for your country.
    Mr. Kopocis, why don't we start with you. You have 5 
minutes to address us and we will move on to Ms. Wodder.

      STATEMENT OF KEN KOPOCIS, NOMINATED TO BE ASSISTANT 
ADMINISTRATOR, OFFICE OF WATER, ENVIRONMENTAL PROTECTION AGENCY

    Mr. Kopocis. Thank you.
    Good afternoon, Chairman Boxer, Ranking Member Inhofe, and 
other members of the committee. I am honored and humbled to 
appear before you today.
    I have many memories of being in this room as either a 
Senate or House committee staff member over my 26 years on 
Capitol Hill, engaging in debates that were often lively, 
robust and resulted in advancing national policies. While I 
have sat at this table scores of times, this is a distinct 
perspective.
    To date, the greatest rewards of my career have been in 
assisting both Senators and Representatives in developing 
bicameral, bipartisan legislation to address the Nation's 
critical water resources and water quality needs. However, 
despite all those memories, it is my greatest privilege to 
appear before you as the President's nominee to Assistant 
Administrator for the EPA Office of Water. I only hope that if 
I am confirmed, I can fulfill the President's and Administrator 
Jackson's confidence in me.
    I have spent the majority of my professional life working 
to address some of the Nation's most critical needs. These 
include eight Water Resources Development Acts, the Water 
Quality Act of 1987 which strengthened the Nation's commitment 
to clean water, protecting and restoring the Everglades and the 
Florida Keys, ending the practice of using our oceans as 
dumping grounds for sludge and garbage, oil pollution 
prevention, preparedness and response following the Exxon 
Valdez spill in 1989 and developing targeted programs for 
California's Bay Delta, Chesapeake Bay, the Great Lakes, Long 
Island Sound, Lake Pontchartrain and the Gulf of Mexico, the 
Tijuana River Valley, San Diego's beaches and the U.S.-Mexico 
border region.
    I am proud to have had a role in protecting the Nation's 
beaches and restoring our economically vital estuaries; 
addressing the impacts of invasive and non-indigenous species; 
cleaning up hazardous waste and returning areas affected by our 
Nation's industrial legacy to productive use through the 
Superfund and Brownfields program, all while protecting public 
health and the environment and advancing economic opportunity.
    While the Nation has made great strides in protecting 
public health and the environment, we have yet to achieve the 
objective established by Congress in 1972 of restoring and 
maintaining the chemical, physical and biological integrity of 
the Nation's waters. If approved by this committee and 
confirmed by the Senate, it is my intent to work with all of 
you toward achieving that objective for this and future 
generations.
    In my work on the committees, I counseled members on how to 
develop and achieve strategies for legislation in a manner that 
assures cooperation and collaboration among all interested and 
necessary parties. I have always attempted to approach issues 
with an open mind, interacting with members of the public, 
State and local officials and interest groups on legislative 
and program development and implementation.
    I have sought to analyze facts, the law and consequences in 
developing solutions to national and local problems. I have had 
the privilege of working on legislation that while not always 
non-controversial, always enjoyed bipartisan support regardless 
of the majority party in Congress or the White House. Chairman 
Boxer, Ranking Member Inhofe, your work on the Water Resources 
Development Act of 2007 was a tangible demonstration of how you 
can work together toward a common goal.
    One of the lessons I have learned from my work on Capitol 
Hill is that the allies on your side of the issues do not 
always have the correct answer and the advocates on the other 
side of an issue are not always wrong. It can be possible to 
address issues in a manner that achieves one's stated goals and 
respects the legitimate perspectives of others in the debate.
    I have observed that too often people hear but do not 
listen. If approved and confirmed, you can count on me to 
listen to all perspectives in the debate. I believe that we all 
share a common goal of clean and healthy water. We demand the 
confidence that when we turn the tap anywhere in the United 
States, there will be an abundant and safe supply of drinking 
water.
    We can restore and protect our precious resources, such as 
the California Bay Delta, Everglades, Chesapeake Bay, Lake 
Pontchartrain, Long Island Sound, Narragansett Bay. We should 
be able to swim at our beaches without fear of illness or 
infection. We can have productive and economically vital 
fisheries and eat the fish that we catch. We can create 
opportunities for the next generation that exceed those that 
were available for us.
    Thank you and I welcome any questions you may have.
    [The prepared statement of Mr. Kopocis follows:]
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]   
    
    
    Senator Boxer. Thank you very much.
    Ms. Wodder.

    STATEMENT OF REBECCA WODDER, NOMINATED TO BE ASSISTANT 
   SECRETARY FOR FISH, WILDLIFE AND PARKS, DEPARTMENT OF THE 
                            INTERIOR

    Ms. Wodder. Thank you, Chairman Boxer, Senator Inhofe and 
members of the committee.
    I am deeply honored to appear before you today as President 
Obama's nominee for Assistant Secretary for Fish, Wildlife and 
Parks.
    I would like to begin with a personal introduction. I am 
from a farming family, born and raised in Nebraska. My parents 
grew up during the Depression and survived grasshopper plagues 
in the Dust Bowl. Hardships had eased a bit by the time I was 
born but I learned the value of hard work early on and never 
took any good fortune for granted. I spent the weekends and 
summers of my youth on my grandparents' farm helping with 
chores and developing my love of barnyards, farm animals and 
cornfields.
    My parents were both teachers and my father taught at every 
level from a one room schoolhouse to the University of 
Nebraska. Public service and education were important values in 
my family and I have spent most of my career working for public 
interest organizations. My lifelong commitment to conservation 
was awakened by an experience in the spring of 1970.
    As a senior in high school, my chemistry teacher tapped me 
to organize activities for the first Earth Day. Inspired and 
eager to play a role in cleaning up pollution, I went on to get 
under graduate degrees in Biology and Environmental Studies and 
Master of Science Degrees in Landscape Architecture and Water 
Resources Management.
    In graduate school, I led a study of the Lower St. Croix 
Wild and Scenic River. I spent a summer exploring the river, 
talking to power boaters and paddlers, anglers and campers 
about their experiences and how to minimize conflicts with 
other users. A lasting memory from that time is discovering a 
cache of sepia-toned, turn-of-the-century photographs of the 
St. Croix.
    On both sides of the river as far as the eye could see, the 
land was completely cut over and the river itself was choked 
with logs. It was the kind of devastation that inspired 19th 
century conservationists. What hit me, though, was the 
resilience of nature and how far the river corridor had come in 
restoring itself, thanks to those who had the foresight to 
protect it.
    When I became President and CEO of American Rivers, I saw 
an opportunity to connect people to nature through rivers. We 
explored, settled and built America by river. Rivers are 
relevant to things that every American cares about: clean 
drinking water, health and safety, prosperity and a high 
quality of life. Most important, rivers are resilient and with 
a little help, like the St. Croix, they can recover and be 
valuable assets, the centerpiece of a vibrant community.
    Among many river restoration projects that were undertaken 
during my tenure, one that stands out was a creative approach 
to improving conditions on the Penobscot River in Maine. A 
collaborative effort between a power company, State and Federal 
agencies, tribes, fishermen and conservationists succeeded in 
maintaining all of the project's hydropower generating capacity 
while removing two dams to open nearly a thousand miles of 
historic river habitat for endangered Atlantic salmon.
    To be asked by President Obama and Secretary Salazar to 
oversee the conservation of this Nation's wildlife, natural and 
cultural resources, parks and refuges is the greatest honor of 
my long career. If confirmed, I will approach my 
responsibilities with deep humility and a commitment to work 
closely with the members of this committee, the fine staff of 
the National Park Service, the Fish and Wildlife Service and 
with the many stakeholders who are affected by the Service's 
programs.
    I will seek balanced approaches that take into account the 
needs of all stakeholders. I believe the best way to achieve 
lasting conservation solutions is through a collaborative 
process. I look forward to promoting the many vehicles for 
partnership that have been developed to implement our Nation's 
conservation laws.
    I will reach out proactively, especially to those whose 
livelihoods are at stake, and listen carefully to their 
concerns and ideas. I will aim for clear policy guidance based 
on the best science. I will commit to fully transparent 
decisionmaking.
    Most fundamentally, I believe that conservation is a widely 
held American value, grounded in two quintessentially American 
principles, being a good steward and being a good neighbor. The 
Nebraska farmers I knew growing up worked hard to protect their 
soil and water and when a neighbor needed help, everyone 
pitched in.
    In closing, I would be greatly honored to serve as the 
Assistant Secretary for Fish and Wildlife and Parks. I believe 
wholeheartedly in the missions of the National Park Service and 
the Fish and Wildlife Service. If confirmed, I will do my best 
to provide the leadership, secure the resources, engage the 
stakeholders and together, with the dedicated men and women of 
these two Services, make measurable progress against the great 
conservation challenges of our time.
    Thank you.
    [The prepared statement of Ms. Wodder follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]   
    
        
    Senator Boxer. Thank you so much.
    Senator Inhofe has asked if he could open the questioning 
because he has another appointment. I said yes, so the floor is 
yours for 5 minutes.
    Senator Inhofe. Thank you, Madam Chairman.
    I do have an Armed Service commitment I can't get out of, 
so let me real quickly cover four things: hydraulic fracturing, 
the Clean Water Restoration Act, the Prairie Chicken, I am sure 
you are all anxious to hear about that, and fish and wildlife.
    The year 2009 was a great discovery year in terms of 
recoverable reserves. That is when we first recognized, and no 
one is going to argue with this, the United States of America 
has the largest recoverable reserves in oil, natural gas and 
coal than any country in the world. Quite often, people will 
say we only have 2 percent of the reserves. Those are proven 
reserves. In order to prove reserves, you have to drill. We are 
talking about recoverable reserves.
    The major change has been in natural gas. With this big 
movement, people want to use natural gas, not just because it 
is plentiful and clean but for we have incredible shale 
deposits. The problem is we can't get one cubic foot of natural 
gas out of these deposits without the process called hydraulic 
fracturing.
    Ms. Wodder, I thought my colleague, Senator Barrasso, was 
going to quote but he didn't quote a statement you made 
``unless we stop the threat of rampant shale fracking, the 
drinking water for 17 million people across the northeast will 
be threatened by toxic pollution. We can't let natural gas 
companies fatten their profits by putting our precious, clean 
water at risk.'
    Later in the Huffington Post, you said, ``Fracking has a 
nasty track record of creating toxic chemical soup that 
pollutes groundwater and streams, threatening public health and 
wildlife.'
    We know something about hydraulic fracturing because that 
started 60 years ago in my State of Oklahoma, not far from 
Duncan, Oklahoma. We have statements from virtually every State 
in the Union that has shale deposits. To the knowledge of the 
Colorado Oil and Gas Conservation Commission and staff, there 
has been no verifiable instance of harm of groundwater caused 
by hydraulic fracturing in Colorado.
    For Michigan, the same statement, there is no indication 
that hydraulic fracturing has ever caused damage to groundwater 
and so forth. In my State of Oklahoma, the same thing is true. 
When we had the Administrator, Lisa Jackson, we asked the same 
question and she said, ``I am not aware of any proven case 
where the fracking process itself has affected water.'
    The first question is, Ms. Wodder, are all these people 
wrong and you are right?
    Ms. Wodder. Thank you for your question, Senator Inhofe.
    Let me begin by saying that in my prior position as 
President and CEO of American Rivers, I had a job to do, I was 
representing my board and my members. There was a mission for 
the organization of protecting clean water and healthy rivers. 
I recognize very clearly that the job I have been nominated for 
is an entirely different job and that responsibilities and the 
role of that position would be to implement the policies of 
this Administration and impartially administer the law. That 
would be my intention should I be confirmed.
    Specifically, with respect to natural gas, I certainly 
agree that it is an important part of the Nation's future 
energy security. As the President has said, the main thing we 
need to do is proceed carefully so that in developing that 
resource, we don't have unintended consequences of damaging the 
clean water that we all depend upon.
    Last, I would say this is in the jurisdiction of the BLM 
and would not be in my purview should I be confirmed.
    Senator Inhofe. So you don't necessarily believe that these 
four statements I read are accurate statements or do you think 
they are accurate statements?
    Ms. Wodder. The four statements?
    Senator Inhofe. The statement by Lisa Jackson and all the 
States who support hydraulic fracturing? My concern is, and I 
don't have time for a long answer because my time is expiring 
rapidly, that you can't get natural gas shale deposits without 
hydraulic fracturing and there has never been a case of 
groundwater contamination as a result of that practice.
    In answering for the record in writing, would you respond 
to that? I would appreciate it.
    When Dan Ashe came up for his nomination as Director of 
Fish and Wildlife, we talked about how they had developed this 
Fish and Wildlife Strategic Climate Change Plan. I asked him, 
are you going to be trying to use Fish and Wildlife to promote 
one of the positions, in this case cap and trade, and his 
response was that climate change is not an overreaching 
consideration driving the Service's day-to-day decisionmaking 
processing. He went on to say, ``We do not believe Fish and 
Wildlife is responsible for the regulation of greenhouse 
gases.' Do you agree with that statement, yes or no?
    Ms. Wodder. Yes.
    Senator Inhofe. Thank you.
    The third area is water. I mentioned in my opening 
statement that not only did we overwhelmingly defeat the Clean 
Water Restoration Act but also the two authors, Congressman 
Oberstar and Senator Feingold. My concern is that in spite of 
the Clean Water Restoration Act being defeated, it appears the 
EPA is attempting to gain the jurisdiction the Clean Water 
Restoration Act would give them through draft guidance 
documents. I am extremely concerned about this course of action 
for a number of reasons. Could we depend on you to not try to 
use this for that purpose?
    Ms. Wodder. Senator, should I be confirmed, the Clean Water 
Act would be outside my jurisdiction. It would not be up to the 
Assistant Secretary for Fish, Wildlife and Parks to implement 
the Clean Water Act.
    Senator Inhofe. The rest of the questions, I will submit 
for the record and would appreciate your responses.
    Thank you.
    Senator Boxer. I want to note that the person who marked 
that law up, I did win my reelection.
    Senator Inhofe. You did. You were the exception. That is 
right.
    Senator Boxer. I know, I was, and a bit of a symbol for 
environmental protection and so on.
    Any way, I am back and before you leave, my friend, I want 
to say I do appreciate your concerns about the issues you 
raised, as well as the concerns raised by Senator Barrasso. 
Honestly, if you look at the portfolio Ms. Wodder has, she 
won't have any direct role at all in fracking and some of these 
other things. I hope you will take a look. This is a good woman 
and I think one who would be very responsive to your concerns.
    Again, before I got elected, I did other things in my life. 
I was a stockbroker. That is what I did. That was then and this 
is now. You were a mayor and you took some of those things with 
you. I think it is important that we not saddle her with issues 
that are not in her portfolio.
    Senator Inhofe. I appreciate that. I would respond by 
saying being a mayor is the hardest job in the world but there 
is a pattern here of appointments that is disturbing to me. We 
talked about John Bryson and several of the others. I want to 
be sure that these departments are not used to keep us from 
developing our resources so that we can reach independence. I 
would be very concerned about these efforts in all of the 
various regulatory bodies.
    Thank you, Madam Chairman.
    Senator Boxer. I am very sad you view it this way. I don't.
    Let me just say Senator Barrasso talked about a book that 
you once read, liked and quoted from. I wanted to straighten 
that out. You said after you read this book, you said, you know 
what, I would like to get my energy a little more locally, 
which I think is great because I have a solar roof in my house 
in California and I don't have to pay for it, so I like the 
fact that I get it locally.
    The other point I wanted to make is if you embrace the 
quote of somebody, that doesn't mean you agree with every 
single thing the person says. Am I right on that?
    Ms. Wodder. I would agree with that, Senator.
    Senator Boxer. For example, I love what Ronald Reagan said 
about the debt ceiling. He said in 1983, ``The full 
consequences of a default or even the serious prospect of a 
default'--let the record show my colleague is walking away from 
me on a Ronald Reagan quote. ``The full consequences of a 
default or even the serious prospect of a default by the United 
States are impossible to predict and awesome to contemplate. 
Denigration of the full faith and credit of the U.S. would have 
substantial effects on domestic financial markets and on the 
value of the dollar in exchange markets. The Nation can ill 
afford to allow such a result.'
    I embrace this comment by Ronald Reagan. Some other 
comments he made, I would distance myself from. He made some 
statements that I don't agree with. The fact is, I don't think 
we should go around here criticizing nominees who happen to 
agree with an idea in a book of which there were a hundred 
ideas. I think it is reminiscent of some bad, ugly times we had 
in this Country, so I want to move on from there.
    I would like to ask both of you to answer the following 
question that have to be asked and answered. First, I will ask 
Mr. Kopocis and then I will ask Ms. Wodder for the answers.
    Do you agree, if confirmed by the Senate, to appear before 
this committee or designated members of this committee and 
other appropriate committees of the Congress and provide 
information subject to appropriate and necessary security 
protection with respect to your responsibilities?
    Mr. Kopocis. Yes, I do.
    Ms. Wodder. Yes, I do.
    Senator Boxer. Do you agree to ensure that testimony, 
briefings, documents, electronic and other forms of 
communication are provided to this committee, its staff and 
other appropriate committees in a timely fashion?
    Mr. Kopocis. Yes, I do.
    Ms. Wodder. I do.
    Senator Boxer. Do you know of any matters which you may or 
may not have disclosed that might place you in any conflict of 
interest if you are confirmed?
    Mr. Kopocis. No, I do not.
    Ms. Wodder. I do not.
    Senator Boxer. Let me say because I am going to move on and 
let others question, I have a series of questions I will submit 
for the record.
    I cannot imagine two more well qualified people to come 
before us. I am so grateful to both of you because these 
confirmations have headaches attached to them both in terms of 
everything you have to fill out and answer and all the rest of 
it. It is hard on the families who sit there and have to hear 
some of these comments. That is the way it is.
    I just want to thank both of you. I certainly will do 
everything in my power, and I know others feel the same way, to 
get your confirmations moving forward.
    Senator Boozman, do you have any questions?
    Senator Boozman. Yes.
    Senator Boxer. Go right ahead.
    Senator Boozman. Thank you, Madam Chair.
    I echo what the Chairman just said. The process is really 
very difficult and I do admire both of you for being willing to 
put yourself through the process. These are very, very 
important positions and I appreciate you in that regard.
    One of the things, Ms. Wodder, that I am concerned about is 
we have a number of levees in Arkansas and in the past, it 
appears you opposed and have a history of filing lawsuits to 
prevent upgrades and improvements to the levee system. A 
classic case I think while you were leading the organization, a 
lawsuit was filed to block improvements over 300 miles of 
levees in Arkansas, Mississippi and Louisiana.
    What I would like to know is due to your forceful advocacy 
in this regard, would you commit to recuse yourself for the 
entirety of your time in this position from any agency 
decisions that could impact the ability of stakeholders in 
Arkansas such as the core State agencies, levee boards, county 
governments, farmers and other private landowners to maintain 
or improve flood risk management structures such as levees?
    That is pretty broad, but again, it is of great concern. We 
feel the levees have done a great job of flood control and when 
you look at American Rivers, they have a history of not being 
very friendly in that regard.
    Ms. Wodder. Senator Boozman, I appreciate the question. 
Certainly, we are seeing more and more floods in this Country, 
they are more severe and more frequent. Levees are an important 
part of an overall solution to protect our communities combined 
with other non-structural approaches like wetland restoration 
and providing rivers some room to spread out.
    To say that levees are not part of it would not be 
something I would agree with. I believe they are a critical 
part of the overall solution to protecting our communities.
    With respect to recusing myself from any possible decisions 
regarding levees, I certainly understand and have been advised 
by the Ethics Office that I will be recused from any matter 
that would have been in litigation that American Rivers was 
involved in, I certainly would do that.
    Actually, the organization that I used to lead has only 
been involved in a very small number of cases, over my 16 and a 
half years, only 16 cases, so it would be a small number from 
which to be recused.
    Senator Boozman. Again, we do have concern about that with 
the history of lawsuits filed by American Rivers.
    Let me ask you about irrigation. American Rivers also 
worked to stop projects important to the survival of farming 
and rural communities in Arkansas. One example is irrigation 
projects in the State that will allow farmers and other 
stakeholders to partner with each other and provide surface 
water in a responsible way for irrigation.
    American Rivers has worked to halt these efforts. The 
problem is, do we damage our aquifers and let them be depleted 
causing permanent damage, or would the organization prefer to 
see our rural way of life in eastern Arkansas come to an end? I 
would have the same concern of you jumping forward and making 
important decisions in that regard.
    You have commented as to why you wouldn't recuse yourself 
in that regard, can you comment a bit about irrigation and some 
of these types of projects?
    Ms. Wodder. I can. Again, let me reiterate that in my prior 
position as American Rivers President I had a job to do and the 
job for which I have been nominated is quite different. With 
that understanding, I would say American Rivers has a history 
of working collaboratively with irrigation districts. There are 
projects that have been undertaken that have come to very good 
solutions that have met the water security needs of irrigators 
along with the water needs of fish and drinking water. I think 
there is a balance we can strike and with enough effort and 
goodwill, sitting around a table, we can find a solution that 
works in everyone's interest.
    Senator Boozman. Thank you, Madam Chair.
    Senator Boxer. Thank you.
    Senator Cardin.
    Senator Cardin. Thank you, Madam Chair.
    Just as a response to some of the questions that have been 
raised, I want to put in the record at your request, we held a 
hearing in the subcommittee on fracking. To respond to Senator 
Inhofe's point, we do know of damage that has been caused to 
our water supply by the manner in which fracking fluids were 
handled once they returned to the surface. It caused 
significant challenges in Pennsylvania, leading to Senator 
Casey filing legislation, which I have co-sponsored.
    I want the record to reflect that we are concerned that the 
water qualities are maintained through the entire fracking 
process including how fracking fluids are disposed of.
    Second, if I might respond to the point that Senator 
Barrasso raised on the removal of dams because as I read some 
of the material, the economic impact of the salmon industry on 
the west coast of the United States is pretty dramatic. There 
has been a significant decline. Part of that is the belief that 
the migration of salmon has been restricted by dams that have 
been put up and bringing down a limited number has helped 
salmon regenerate.
    I think we need to take a look at the total economic impact 
including an industry that is important to our country, the 
salmon industry. I just mention it because I think the record 
should reflect that the actions taken have helped our economy 
and there is a concern as it relates to fracking.
    To my two questions, first to Mr. Kopocis, I appreciate 
both your written and oral statements concerning the great 
water bodies. I am working on the next generation of the 
Chesapeake Bay bill from the experiences of the last Congress 
trying to work out some of the issues raised. We came close to 
getting that done, along with other great water body bills 
sponsored by members of this committee.
    Once you are confirmed, will you work with this committee 
for a workable strategy so that we can advance these great 
water bodies and try to get them done? I know it is a tough 
political environment but as you point out in your statement, 
this is one of the highest priorities, to protect our great 
water bodies.
    Mr. Kopocis. Yes, Senator. I look forward to working with 
you, your office and other Senators interested in working on 
the great water bodies within the EPA Office of Water.
    Senator Cardin. Thank you.
    To Ms. Wodder, I mentioned in my opening statement the 
Harriet Tubman Park where we are very proud of being able to 
preserve the countryside in which Harriet Tubman operated her 
underground railroad. It is adjacent to the Blackwater Wildlife 
Refuge which is an incredible asset to our community.
    The good news is the local community on the eastern shore 
of Maryland strongly supports the efforts we are making both at 
Blackwater and to establish the Harriet Tubman Park. They look 
at it as an economic advantage, bringing tourists to the 
eastern shore of Maryland, as well as preserving the 
environmental heritage and the cultural heritage of the eastern 
shore of Maryland.
    We came close to getting that legislation enacted in the 
last Congress and I would like to just bring that to your 
attention and ask for your help once you are confirmed to 
advance those types of projects that can add to the great 
heritage of America and our national park system.
    Ms. Wodder. Senator Cardin, I look forward to working with 
you, your staff, and other members of the committee to advance 
both of the cases you just mentioned.
    Senator Cardin. Thank you.
    Thank you, Madam Chair.
    Senator Boxer. Thank you.
    Senator Lautenberg.
    Senator Lautenberg. Thank you, Madam Chairman.
    As I listened to the criticism of Ms. Wodder's experience, 
I want to tell the families, don't feel offended by the 
criticism because here no good deed goes without punishment.
    I also have to reflect for a moment on the information we 
have about Ms. Wodder's experience, the 30 years of being with 
American Rivers and the Wilderness Society. It is established 
that American Rivers helped dozens of communities restore river 
health through conservation projects including river trails.
    I have a letter here that I would like entered into the 
record.
    Senator Boxer. Without objection.
    [The referenced information was not submitted at time of 
print.]
    Senator Lautenberg. This letter is from Eli Lehrer, Vice 
President of the Heartland Institute. He says the Heartland 
Institute is a national, free market think tank devoted to free 
markets, limited government and sensible regulatory policy. ``I 
write to you in support of the nomination of Rebecca Wodder as 
the Assistant Secretary of Interior. I first became familiar 
with Ms. Wodder's organization in the debate over national 
flood insurance program. At all times, I found American Rivers 
staff willing to work for the right of central organizations 
like my own in open, new ideas, and supportive of many free 
market values.' It goes on extolling your abilities and the 
organizations you worked with. ``Quite simply, Ms. Wodder's 
views on a large number of issues are, in my judgment, exactly 
those that conservatives concerned about our natural 
environment should endorse.'
    I come away with this conclusion, that a doctor who is a 
resident might be excluded from using that knowledge, the 
knowledge gained in serving patients, so you have to be 
careful. Don't have too much experience because it is not 
always a good thing. You are getter off to get a doctor who 
doesn't have any experience and take a chance.
    The white nose syndrome talked about moments ago is killing 
bats across the country at an unprecedented rate, wiping out 
more than a million bats since first discovered as a disease in 
2006. What might the consequences be in terms of our economy 
and environment if we fail to stop the white nose syndrome?
    Ms. Wodder. Senator Lautenberg, I agree with you that bats 
are a very important part of our economy and the ecological 
fabric of the country and this is a serious issue. I know the 
Fish and Wildlife Service is working hard on it and 
coordinating with partners in other agencies to look into the 
research, public education, and management plans. I think it is 
an important priority and should I be confirmed, I would look 
forward to working with you and other members of the committee 
on that very important issue.
    Senator Lautenberg. I authored legislation establishing the 
Great Falls National Historic Park in Patterson, New Jersey. 
This park will serve as an important historic landmark and 
catalyst to the local economy. While the legislation became law 
in 2009, very little progress has been made and I am concerned 
that in this tough budget climate, new parks like Great Falls 
may not receive the attention they deserve. If confirmed, can 
you help with new parks like the Great Falls, move forward?
    Ms. Wodder. I have just begun to be briefed on the Great 
Falls Park. It sounds like a wonderful community that is behind 
this new unit of the National Park system. You are right, we 
are in tough budget times and the resources have to be spread 
very far. I would certainly commit to working with you, with 
other members of the committee, and with people in the 
community to see if there are some creative ways to bring 
resources to bear to make sure that this park gets off to a 
good start as you hope.
    Senator Lautenberg. Thank you.
    In my closing seconds, I don't ask that question because I 
was born in Patterson, New Jersey but also, Alexander Hamilton 
came there to start the industrial revolution and used that 
river water very efficiently. Unfortunately, since that time, 
it has been abused and filled with all kinds of bad things. We 
want to clean up these rivers, keep up the work you did with 
American Rivers and fight hard.
    You said in your opening remarks you would serve in all 
humility and I want you to serve with all aggression.
    Thank you very much, Madam Chairman.
    Senator Boxer. Thank you.
    Senator Barrasso.
    Senator Barrasso. Thank you, Madam Chairman.
    Ms. Wodder, you recently left American Rivers, do you agree 
with all the public statements you made during your tenure 
there?
    Ms. Wodder. Again, Senator Barrasso, I had a job to do. I 
was President of an organization, a non-profit organization 
that advocates for healthy rivers and clean water for all 
Americans. The positions that I took represented that mission 
and were on behalf of the members of the organization. It was a 
fairly specific mission, just for rivers and clean waters.
    I would like to distinguish between the work I have done in 
the past and the work that I would do should I be confirmed. I 
do not bring an agenda with me. I look forward to the 
possibility of serving the conservation interest of the Nation.
    Senator Barrasso. So in terms of some of the statements you 
made, even though to me they may have seemed extreme, you don't 
really stand by all of them, this was just in that position and 
that job, is that correct?
    Ms. Wodder. I stand by the work that I did in my position 
as President of American Rivers, yes.
    Senator Barrasso. On August 5, 2007, you were interviewed 
by E, the environment magazine. In the interview, you stated, 
``I eat almost no beef or pork because of the amount of 
resources consumed in producing food via cattle or pigs and 
because I object to factory farms.' Is that your personal view, 
that you object to factory farms or is that the viewpoint 
expressed by you as a spokesperson for American Rivers in terms 
of your dietary life and issues there?
    Ms. Wodder. There are various elements in your question, 
Senator. In terms of my dietary preferences, those are personal 
views, but the comment on factory farms would be a comment on 
behalf of American Rivers.
    Senator Barrasso. On August 5 when asked which 
environmental groups you most admired and why, you said, ``I'm 
a huge fan of the work of the Center for the New American Dream 
which is offering practical choices for living a more 
sustainable and high quality of life in the United States.'
    That is an organization that discusses prosperity without 
growth. Though not widely accepted, they say the case is strong 
that growth in the affluent U.S. is now doing more harm than 
good. You also stated in the same interview that you supported 
Bill McKibbens' book Deep Economies and said, ``I am a strong 
supporter of his call for a new economic model,' not for his 
philosophy. You said, ``I am a strong supporter of his call,' 
not the organization but you are ``a strong supporter of his 
call for a new economic model based on sustainability.'
    The President talks about growth, a lot of people here in 
Washington talk about growth and about the 9.2 percent of 
unemployment in the Country, but you are a strong supporter of 
a different model, a new economic model based on 
sustainability.
    In his book, he states, ``Growth, at least as we now create 
it, is producing more inequality than prosperity, more 
insecurity than progress.' I am questioning your support of 
this new economic model and how we have prosperity without 
economic growth, in your opinion.
    Ms. Wodder. Senator, when I had the good fortune of being 
an aide to Senator Gaylord Nelson, he would often say that the 
same concepts underlie both the word economy and ecology. They 
both come from the Greek root word ecos, meaning that to have a 
strong, healthy economy, a thriving country, we need to have 
the natural resources that support that in a sustainable way. I 
was referring to those kinds of positions in those comments.
    I certainly believe as a mother I want this Country to be 
strong into the future and have both a healthy environment and 
a strong economy.
    Senator Barrasso. If confirmed, are you going to make 
decisions with the intention of limiting economic growth? Is 
that the mindset you are going to bring?
    Ms. Wodder. If I were to be confirmed that would not be my 
mindset. My two responsibilities, the National Park Service and 
the Fish and Wildlife Service, I would have carefully defined 
responsibilities through laws passed by the Congress and 
through policies of the Administration. It would be my job to 
implement the policies of this Administration and impartially 
administer the laws.
    Senator Barrasso. Yesterday, I got a letter from the 
National Rural Electric Cooperative Association which opposes 
your nomination. The letter highlights what they describe as 
``misguided efforts to dismantle our Federal hydropower 
resource.' It says you spent your ``professional career 
attempting to eliminate this reliable, affordable, renewable 
resource from our energy portfolio.'
    Given American Rivers' strong objection to hydropower under 
your tenure, how can you make objective decisions at the 
Interior Department regarding hydropower?
    Ms. Wodder. First of all, hydropower is an important part 
of our Nation's energy source and it can, if it is properly 
sited and operated and mitigated, can be a green source of 
energy. My former organization, American Rivers, worked 
collaboratively with the National Hydropower Association on 
legislation that would double the amount of hydropower 
generating capacity in this country. I believe that hydropower 
can and will be an important part of the overall energy mix.
    Senator Barrasso. Thank you, Madam Chairman.
    Senator Boxer. Thank you.
    I think it is important to note that if we had more 
sustainable energy, we wouldn't have to import oil from some of 
those nations that harbor terrorists who attack us, so good for 
you for pushing for sustainability. That is where I am at.
    Now, I am going to call on Senator Gillibrand.
    Senator Gillibrand. Thank you, Madam Chairwoman.
    Thank you, nominees, for being here and for your 
willingness to serve. I want to direct a few questions to Mr. 
Kopocis first.
    Mr. Kopocis, it has come to my attention that under EPA's 
long term to enhance surface water treatment rule, New York 
City would be required to build a $1.6 billion cover over the 
90-acre Hillview Reservoir as a measure to reduce micro-bio 
pathogens such as cryptosporidium and giardia in the water 
supply.
    New York City already undertakes an aggressive water 
testing program with half a million tests on their water supply 
each year for pathogens such as cryptosporidium and giardia. In 
addition, the city's Department of Environmental Protection has 
a host of water protection programs including multiple chemical 
treatments, waterfowl management and land and farm planning 
within the watershed.
    This unfunded requirement would be in addition to the one 
that New York City is already undertaking to install a $1.6 
billion ultraviolet treatment system which would kill the very 
same pathogens. In fact, according to the New York City 
Department of Health, approximately 100 cases of 
cryptosporidium illness are reported in a given year in a city 
of over 8 million people. A 2010 study performed by the New 
York City Department of Health into this issue did not cite the 
Hillview Reservoir as a source of concern.
    I support aggressive efforts to protect the public health 
and well being of all New Yorkers, but given the President's 
call to ease overly burdened regulations, do you support 
amending rules like LT-II, the Surface Water Treatment Rule 
when the evidence clearly suggests there is little public 
health benefit to compliance?
    Mr. Kopocis. Thank you for the question, Senator.
    I have recently become aware of the situation in New York. 
I have worked with representatives from New York City and New 
York State concerning New York City's water supply, the 
protection of the watershed, how it has served as a model for 
protecting watersheds used as drinking water, and for other 
sources as well, and how communities can take matters into 
their own hands to make sure their water supplies are provided 
in a safe and sufficient quantity as well for the community.
    The application of the LT-II rule I am not particularly 
familiar with but I would be happy to work with you and your 
office to become more familiar with the circumstances in New 
York, and would welcome that opportunity if I am confirmed.
    Senator Gillibrand. Thank you very much. I look forward to 
working with you on that.
    The second issue I want to bring your attention to is 
obviously we are in a very grave economic climate and we all 
have to tighten our belts and reduce spending where we can, but 
some investments provide short term and long term growth. One 
of those investments very important to New York is the 
investment in sewer systems and water infrastructure systems.
    New York State has billions of dollars of unmet sewer and 
water treatment system needs that are going unmet today. We 
have had sewer failure, we have had water main breaks from 
aging, we have had overflow issues and we do suffer from an 
aging infrastructure with many of the sewers built between 50 
and 75 years ago.
    I just want to urge you to be mindful of the great need we 
have with water infrastructure in New York State. Such 
investments can be significant economic engines, both for short 
term and long term growth, and water quality and sustainability 
for each community.
    Mr. Kopocis. Thank you.
    Senator Gillibrand. To Ms. Wodder, I wanted to thank you 
again for your testimony and thank you for your public service 
and your interest in serving in our Administration.
    I wanted to just echo the comments of my colleague, Senator 
Cardin, on the importance of the Harriet Tubman Park system. I 
think it is going to make an extraordinary difference to our 
communities, for historic preservation and also for education 
of our children and the next generation. It is also a great 
economic engine for our regions because of the tourism that is 
created, the tourism opportunities to a part of these historic 
sites.
    I just want to echo his comments on the importance of 
establishing this historic site and this park. I look forward 
to working with you on that.
    The second issue I wanted to highlight for you is that 
Congressman Hinchey and I have been working over the last 
couple Congresses on a natural resource study for the Hudson 
Valley as a Federal initiative to look toward preservation and 
a national park for this study. I am hoping you can work with 
us on that as another project of significance for both 
preservation and accessibility and have a Federal role in that 
establishment.
    Last, I just want to work with your office to make sure 
that we can be a resource since your mandate is so important to 
New York State.
    Ms. Wodder. Thank you.
    Senator Gillibrand. Thank you.
    Thank you, Madam Chairwoman.
    Senator Boxer. Senator Carper.
    Senator Carper. Welcome to both of you and thanks so much 
for your willingness to take on these responsibilities if 
confirmed. Thanks for being willing to go through the 
nomination process. Having been nominated as Governor to serve 
on the Amtrak Board of Directors, I remember frankly, it wasn't 
a lot of fun, filling out all the paperwork and all the 
disclosures. It took a long time and I appreciate your 
willingness to go through the process, including today's 
hearing and your preparation for that.
    I feel our two nominees today have been nominated for 
positions that are important to EPA and important to the 
Department of Interior and I think important to our country. It 
is my sincere hope that we can move forward expeditiously on 
both.
    Mr. Kopocis is a familiar face, a welcome face. So is 
yours, but you are not as familiar to us, as you know, but we 
have worked with this guy for a long time. I think I speak for 
most of my colleagues in believing that you would offer to the 
position for which you have been nominated a lot of experience 
in water issues and also in the history of getting things done 
here in Washington. On a good day, it is hard to get anything 
done as you know.
    I am pleased to say that I appreciate the time you spent 
with us yesterday and am pleased to be able to support your 
nomination. If you do get confirmed, and there is a good chance 
you will, hopefully we will have a chance to work with you.
    For Ms. Wodder, as I said earlier, I think you have been 
nominated to work in an important position. I think you would 
oversee two divisions, as I understand it, within the 
Department, the Fish and Wildlife Service and National Park 
Service, is that correct?
    Ms. Wodder. Yes.
    Senator Carper. Which one is the more important? You can 
tell me later at the end. I think we both agree they are both 
important.
    I was a naval flight officer years ago, a House member and 
Governor of Delaware, and now I have supported efforts to 
protect endangered species like horseshoe crabs and protection 
of their habitat. I am confident that you will work to protect 
the spirit of the letter of the Endangered Species Act.
    As you may know, Ms. Wodder, Delaware is the only State 
that doesn't have a national park. I don't know if anyone has 
mentioned that to you. I just want to say that I hope with your 
help and the help of my colleagues here in the Senate and over 
at the House, we hope to change that.
    A couple of years ago the National Park Service was good 
enough to, I think in the previous George W. Bush 
administration, finish the special resources study that 
recommended a national park in Delaware. They came up with a 
theme. He said what makes Delaware unique is the early colonial 
settlement leading up to the ratification of the Constitution 
in 1787. He said, that is your schtick, that is what makes you 
stand out, the early settlement by the Swedes, by the Dutch, by 
the Finns, the work by William Penn which led to the 
establishment of the town of Newcastle.
    In fact, the penman of the revolution lived in Dover. 
Caesar Rodney rode his horse all the way from Dover, Delaware 
to Philadelphia I think on July 1, 1776 in order to cast the 
tie-breaking vote in favor of the Declaration of Independence. 
We ratified the Constitution in 1787 before anyone else. For 
one whole week, Delaware was the entire United States of 
America. Then we opened it up and let in the others.
    Some days we question whether we should have done that. No, 
for most days, we think it worked out pretty well.
    I have introduced legislation again in this Congress with 
the Department of Interior, actually with the support of Ken 
Salazar, a former colleague, to try to create a national park 
in our State. We look forward to working with you to make this 
national park in the first State a reality.
    If I can, a question for Ms. Wodder, Secretary Salazar has 
stated he supports creating a national park in the first State. 
I would ask Ms. Wodder if you would work with us, with me and 
my colleagues and our delegation, if you are confirmed to see 
how we can make this park a reality in this Congress?
    Ms. Wodder. Should I be confirmed, I would look forward to 
working with you toward that end.
    Senator Carper. That was a really good answer.
    If confirmed as the Assistant Secretary, what would be your 
top priorities during your tenure besides the national park for 
Delaware?
    Ms. Wodder. Other than that, within the Fish and Wildlife 
Service, I have been receiving briefings and learning about the 
issues and challenges before the Service. One of the things 
that seems to be a top priority for the Service is determining 
how to do a better job of implementing the Endangered Species 
Act, to make it less complex and less contentious and thereby, 
more effective. That seems to me to be an important thing to 
do. We have a great backlog of species threatened with 
extinction.
    The Service is clearly a dedicated group of individuals who 
are committed to doing the job well and need to have the 
ability to do that based on the best science and in conjunction 
with their partners in State and local agencies and other 
stakeholders. That would be a priority to make sure the 
Endangered Species Act is working well.
    With respect to the National Park Service, I would say that 
I really can't put a top priority on that, I have been learning 
about so many different important issues, including the one you 
raised of Delaware not having a national park. They all strike 
me as highly worthy and I hope to be supportive of the great 
work of the National Park Service as well.
    Senator Carper. Madam Chairman, thank you for that extra 1 
minute and 19 seconds.
    Senator Boxer. Thank you very much.
    We are going to do only one round of questioning. Senator 
Inhofe had to leave at 3 p.m. and I have to leave now and get 
to a 4 p.m., so I am not going to ask my questions, I am going 
to put them in the record and we will leave room for all 
colleagues to put their questions in the record.
    Senator Boozman. I would like unanimous consent that this 
letter from the coops be in the record and also a statement in 
the record.
    Senator Boxer. Yes, sir.
    [The referenced information follows:]
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    
    
    Senator Boxer. So here is where we are. I am looking 
forward to your swift confirmation. I want to tell you 
something. The National Park Service runs an incredible program 
surrounding Alcatraz, a national park. I have never seen 
anything so fabulous and the amount of tourism that comes 
there, so you are in a position to really help this economy by 
preserving the parks, by preserving the wildlife.
    Let me say I apologize for some of the questions you were 
asked, frankly, because I think they were confusing your 
personal views with the role you had. As I said, I was very 
different when I was a stockbroker. My whole goal was to make 
money for my clients. My goal now in my new job is public 
service, so it is very different.
    When you are in an advocacy role, it is very different when 
you work for the President where you carry out his priorities 
in the way he wants you to, according to the law and the 
science. We thank you very, very much.
    We also honor your families.
    We stand adjourned.
    [Whereupon, at 3:48 p.m., the committee was adjourned.]
    [Additional material submitted for the record follows.]

             Statement of Hon. Jeff Sessions, U.S. Senator 
                       from the State of Alabama

    We have two significant nominations before our committee 
today.
    The first, Mr. Kopocis, has been nominated to lead the 
EPA's Office of Water. If confirmed, he would have primary 
responsibility over the Clean Water Act, the Safe Drinking 
Water, and various other important laws.
    The second, Ms. Wodder, has been nominated to be Assistant 
Secretary of the Department of Interior, where she would 
oversee the U.S. Fish & Wildlife Service and the National Parks 
Service. Second only to Secretary Salazar, she would have 
significant control over the Endangered Species Act and other 
Federal laws and policies.
    I look forward to hearing from both witnesses today.
    As the Ranking Republican on the Subcommittee on Water and 
Wildlife, both of these nominations are very important to me. 
They are also important because both positions are critically 
important to, and can have serious implications for, my state.
    Mr. Kopocis, you are stepping into a difficult task. There 
are several controversial issues about which you will be 
required to make decisions. As you know, Congress has 
repeatedly refused to enact legislation that would expand the 
scope of the jurisdictional term, ``waters of the United 
States,'' which is so fundamental to the framework of the Clean 
Water Act.
    The Supreme Court has ruled on the matter several times, 
and each time it has recognized that the Clean Water Act does 
not give the EPA or the Corps unlimited jurisdiction over the 
waters in our Nation.
    However, EPA has decided to go around the Congress by 
proposing a guidance document that, in my view, vastly expands 
what should be considered ``waters of the United States.''
    Last month, I joined over 40 senators in a letter to EPA 
Administrator Lisa Jackson urging her to abandon any further 
action on this guidance document.
    In addition, Mr. Kopocis, you are aware of EPA's efforts to 
regulate pesticides through the Clean Water Act.
    I understand that this effort was brought on by a Federal 
court decision, but I still believe that the use of FIFRA-
compliant, government-approved pesticides should not require 
EPA permitting under the Clean Water Act.
    This issue is very important to farmers, foresters, public 
health agencies, small businesses, and others who use 
pesticides.
    The House of Representatives recently passed a bill, by a 
vote of 292-130, clarifying that the use of these pesticides 
does not require EPA permitting under the Clean Water Act. And 
just a few weeks ago, the Senate Agriculture Committee voted 
the same bill out of committee with bi-partisan support. I am 
urging my colleagues to allow this important bill to come to 
the floor for a vote.
    Ms. Wodder, you have been nominated to an important 
position. As you may know, Alabama also has several national 
parks, such as the Little River Canyon National Preserve; 
dozens of national historic landmarks; and more than 1,200 
places on the National Register of Historic Places. Your role 
in overseeing the National Parks would be very important to my 
state.
    But perhaps more important to my State would be your role 
in overseeing the Fish & Wildlife Service.
    My constituents in Alabama have frequent interactions with 
the Fish & Wildlife Service. Alabama has more species on the 
Endangered Species List than any other state, except California 
and Hawaii.
    We have over 120 species on the list. As a result, many 
Federal, state, and even private activities in my State require 
some degree of interaction and consultation with your agency.
    I need to be sure that the person who oversees the Fish & 
Wildlife Service is qualified, fair and impartial, and does not 
have a far-left agenda that would prevent them from faithfully 
fulfilling the law, without unreasonable delay.
    Ms. Wodder, I am very concerned about your nomination. You 
have spent the past 30 years as an environmental activist. You 
have never managed a large budget or large organization. You 
have not demonstrated the kind of experience and background 
that is normally expected for this job. And many of your past 
statements call into question whether you can fairly and 
impartially fulfill the obligations of the position to which 
you have been nominated.
    But I am open to considering your nomination and learning 
more about your background this morning.
    I look forward to the opportunity to ask questions.
    Thank you.

                                 <all>
</pre></body></html>
